OIG Investigative Reports, Admissions Reporesentative Convicted of Pell Grant Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
The United States Attorney's Office
Southern District of Florida
Public Affairs Office:
Alicia Valle
Special Counsel to the U.S Attorney
(305) 961-9153
Public Affaira Fax
(305) 530-7055
ADMISSIONS REPRESENTATIVE CONVICTED OF PELL GRANT FRAUD
July 17, 2009
FOR IMMEDIATE RELEASE
Jeffrey H. Sloman, Acting United States Attorney for the Southern District of Florida, and Lester Fernandez, Special Agent in Charge, U.S. Department of Education, Office of Inspector General, announced that today a jury found defendant, Henry Robert Jean Leger, 49, of Miami, guilty of Pell Grant fraud, wire fraud, and conspiracy to commit the same. Sentencing before U.S. District Court Judge Joan A. Lenard is scheduled for September 29, 2009, at 11:00 a.m.
According to the Indictment and evidence admitted at trial, Leger, while acting as an admissions representative at the Miami Technical Institute, a for-profit vocational school formerly located at 14701 N.W. Seventh Avenue, Miami, Florida, directed students to falsify financial information to qualify the students for Pell Grant funds that were paid to the school by the U.S. Department of Education from 1997 through 1998. Defendant Leger and his co-conspirators were responsible for defrauding the Pell Grant program of over $160,000.
This case demonstrates our commitment to aggressively pursuing those who abuse their positions of trust and misuse Federal education funds for their personal enrichment, said Mary Mitchelson, acting Inspector General of the U.S. Department of Education. Im proud of the work of OIG Special Agents, the U.S. Marshals Service, and the U.S. Attorneys Office for their relentless pursuit of this man and for holding him accountable for his fraudulent actions.
Mr. Sloman commended the investigative efforts of the Department of Education and the U.S. Marshals Service. The case was prosecuted by Assistant United States Attorneys Ryan D. OQuinn and Christopher J. Clark.
A copy of this press release may be found on the website of the United States Attorney's Office for the Southern District of Florida at http://www.usdoj.gov/usao/fls. Related court documents and information may be found on the website of the District Court for the Southern District of Florida at http://www.flsd.uscourts.gov or on  http://pacer.flsd.uscourts.gov.
If you wish to make a request for information, you may contact our office at 305-961-9001, or you may send a written inquiry to the United States Attorney's Office, Southern District of Florida, 99 NE 4th Street, Miami, Fl. 33132.
Top
Printable view
Last Modified: 07/20/2009
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov